   Audit of National Science Board
Compliance with the Government in the
    Sunshine Act for 2007 - 2009



      National Science Foundation
       Office of Inspector General




            February 12, 2010
              OIG 10-2-008
Executive Summary
BACKGROUND         In the early 1970s, Congress enacted the Government in the
                   Sunshine Act (Sunshine Act) in order to open the
                   government’s deliberation processes to public scrutiny. The
                   Sunshine Act applies to the National Science Board (NSB or
                   Board) and requires that its meetings be open to the public,
                   with the exception of meetings that qualify for ten narrow
                   exemptions. While the Sunshine Act does not require an
                   agency to hold meetings, it does contain a number of
                   requirements that must be followed when an agency decides
                   to meet either in closed or open session.

                   To help ensure greater openness in Board meetings, the
                   National Science Foundation (NSF) Office of Inspector
                   General (OIG) is statutorily required to conduct periodic audits
                   of the Board’s compliance with the Sunshine Act.

AUDIT OBJECTIVES   In keeping with the statutory audit requirement, the objectives
                   of our audit were to:

                   •   Determine whether the Board’s closures of meetings were
                       consistent with the exemptions contained in the
                       Government in the Sunshine Act; and,

                   •   Determine whether the Board and its subdivisions were in
                       compliance with the procedural requirements of the
                       Government in the Sunshine Act.

RESULTS IN BRIEF   In addition to implementing policies and procedures that
                   address all previous audit recommendations, the Board was in
                   full compliance with the Sunshine Act, from January 2007 to
                   August 6, 2009, when it made decisions to close upcoming
                   Board meetings. In our review of available closed-meeting
                   transcripts, we did not find any instance where the Board had
                   specifically decided to close a meeting that instead should
                   have been held open to the public. In addition, for most open
                   meetings, the Board continues to show compliance with the
                   Sunshine Act’s procedural requirements, including proper
                   public announcement of meetings within the statutory time
                   frames.

                   However, our audit raises some concerns. Most notably, the
                   Board could not produce complete transcripts or recordings,
                   as required under the Sunshine Act, for 9 of the 28 closed
                   meetings we reviewed. When transcripts are incomplete or


                                                                                     i
                       unavailable, the public cannot obtain information from these
                       closed meetings and public trust in the decision-making
                       process may be diminished. A combination of insufficient
                       knowledge of Sunshine Act requirements and technical
                       problems contributed to the Board not having complete
                       transcripts.

                       Further, we found several instances where the Board made
                       impromptu adjustments to meetings by adding items to the
                       discussions without following all of the Sunshine Act
                       requirements for such changes. Adherence to these
                       procedural requirements helps ensure the fullest amount of
                       openness in government and not following them can diminish
                       Board transparency and accountability. These instances of
                       non-compliance appears to have occurred because of the
                       Board’s process for setting meeting agendas, which may not
                       provide all Board members with the opportunity for input into
                       the planned topics for discussion and because Board
                       members, Board Office staff, and Executive Secretaries may
                       not have the knowledge needed to properly handle impromptu
                       meeting changes.

                       Finally, we noted a few minor instances of non-compliance for
                       which we are notifying the Board Office under separate cover.

RECOMMENDATIONS In order to demonstrate the Board’s continued commitment to
                both the requirements and the intent of the Sunshine Act, we
                recommend that the Executive Officer of the National Science
                Board 1) ensure that closed meetings are properly recorded
                and transcribed; 2) evaluate ways to improve the current
                process for setting agenda items to decrease the instances of
                impromptu changes; 3) update the Board Office’s Sunshine
                Act policies and procedures and processes to facilitate
                compliance; and 4) ensure that all Board members and
                pertinent staff receive continuing periodic training on Sunshine
                Act requirements.

AGENCY RESPONSE        The Board reviewed a draft of this report and generally agrees
                       with our findings and recommendations. In addition, the
                       Board stated it is working to increase its transparency and
                       openness.

                       We have included the Board’s response to this report in its
                       entirety as an appendix.




                                                                                      ii
Table of Contents
         Executive Summary                                               i

         Introduction                                                    1

         Results of Audit                                                5

         Board Demonstrates Compliance with Most Sunshine                5
         Act Requirements

         Board Needs to Maintain Complete Transcripts of                 6
         Closed Meetings

         Process Improvements Needed for Impromptu                       7
         Agenda Changes

         Conclusions and Recommendations                                 9

         Other Matter                                                   10

         Agency Response                                                10

         OIG Contact and Staff Acknowledgements                         10

         Appendix A: Agency Response                                    11

         Appendix B: Objectives, Scope, and Methodology                 12


         Acronyms

         A&O                Audit and Oversight Committee
         CPP                Committee on Programs and Plans
         CSB                Committee on Strategy and Budget
         EC                 Executive Committee
         NOM                Committee on Nominating for NSB Elections
         NSB or Board       National Science Board
         NSB (PL)           NSB Plenary Open
         NSB (PLE/PL)       NSB Plenary Executive/Plenary Closed
         NSF                National Science Foundation
         OIG                Office of Inspector General
         VBA                Vannevar Bush Award Committee




                                                                             iii
Introduction
                 Background

                 The National Science Board (Board or NSB) is the governing entity of the
                 National Science Foundation (NSF), an independent Federal agency
                 established by the National Science Foundation Act of 1950. 1 The Board
                 is composed of 24 part-time, Presidentially-appointed members, who are
                 selected on the basis of their eminence in fields such as the sciences,
                 engineering, and education. The NSF Director is also an ex officio
                 member of the Board.

                 The Board has the responsibility for providing national science policy
                 advice to the President and Congress, and for establishing the policies of
                 NSF. The Board primarily conducts its business during two-day meetings,
                 which are generally held five times a year. Much of the background work
                 in preparation for Board discussion and action is done through its
                 committees.

                 Currently, the Board has six standing committees: Executive, Audit and
                 Oversight, Education and Human Resources, Programs and Plans,
                 Science and Engineering Indicators, and Strategy and Budget. These
                 committees, and other subcommittees and task forces, generally meet
                 during the same two-day period as the full Board. In addition, the
                 committees may meet at other times throughout the year on an as-needed
                 basis.

                 Board meeting administration and other day-to-day operations for the
                 Board are managed through the National Science Board Office (Board
                 Office). This office is headed by an Executive Officer, who oversees a
                 staff that includes policy, science and administrative personnel. In
                 addition to supporting the operations of the Board, the responsibilities of
                 the Board Office include compliance with the Sunshine Act. The Board
                 and its committees are also assigned executive secretaries. These are
                 generally drawn from Board Office or other senior NSF staff. The
                 executive secretaries provide policy and administrative support for the
                 Board’s committees, as well as facilitate information flow among the
                 committees, the Board Office, and NSF management.

                 The Government in the Sunshine Act

                 In the early 1970s, partially in response to the Watergate scandal,
                 Congress enacted the Government in the Sunshine Act (Sunshine Act)


1
    42 U.S.C. §1861 (2006).


                                                                                               1
                along with other anti-secrecy legislation. Congress intended the Sunshine
                Act to open the government’s deliberation processes to public scrutiny.

                The Sunshine Act applies to agencies “headed by a collegial body
                composed of two or more individual members . . . and any subdivision
                thereof authorized to act on behalf of the agency,” 2 and covers some 50
                Federal agencies, including the National Science Board. The Sunshine
                Act requires that “every portion of every meeting of an agency shall be
                open to public observation” 3 with the exception of meetings that qualify for
                ten narrow exemptions for discussions of material that are likely to
                disclose:

                        (1) National Defense and foreign policy;
                        (2) Internal personnel rules and practices;
                        (3) Statutory exemptions;
                        (4) Proprietary information;
                        (5) Accusation of crime or formal censure;
                        (6) Personal privacy;
                        (7) Investigatory records;
                        (8) Financial institution reports;
                        (9)(A) Financial speculation and stability;
                        (9)(B) Frustration of proposed agency action; and
                        (10) Issuance of subpoena, participation in civil action or
                        proceeding, or formal agency adjudications. 4

                While the Sunshine Act does not require an agency to hold meetings, it
                does contain a number of procedural requirements that must be followed
                when an agency decides to meet for either a closed or open session.
                First, at least one week prior to each meeting, the agency must make a
                public announcement regarding the time, place, and subject matter of the
                meeting, the name and phone number of a designated contact official, and
                whether the meeting is to be open or closed.

                Additionally, to close all or a portion of a meeting, an agency must vote to
                do so and make publicly available a written copy of the vote and a “full
                written explanation of its action closing the portion [of the meeting].” 5
                Also, for a closed meeting, the agency’s General Counsel, or chief legal
                officer, must publicly certify that the meeting may be closed under one of
                the Sunshine Act’s exemptions. Further, aside from a few limited
                exceptions, the agency must maintain a complete transcript or electronic
                recording of closed meetings that can be requested by the public.


2
  5 U.S.C. § 552b(a)(1) (2007).
3
  Id. § 552b(b).
4
  Id. § 552b(c).
5
  Id. § 552b(d)(3).


                                                                                               2
                Finally, the agency must annually report to the Congress: any changes in
                the agency’s policies and procedures under the Sunshine Act; a tabulation
                of the number of meetings held, exemptions applied, and the days of
                public notice provided to close a meeting; a brief description of litigation or
                formal complaints concerning the implementation of the Sunshine Act; and
                any changes in law that have affected the open-meeting responsibilities of
                the agency.

                Open Meetings of the National Science Board

                In accordance with the Government in the Sunshine Act, the National
                Science Board has traditionally opened its full-Board meetings to the
                public. However, prior to 2003, the Board did not provide public access to
                the meetings of its committees, subcommittees, taskforces, or other
                subdivisions.

                The National Science Foundation Authorization Act of 2002, which
                became effective in December 2002, contained administrative
                amendments to the National Science Foundation Act pertaining to Board
                meetings. As part of these amendments, the Congress specified that in
                addition to meetings of the full Board, “all of its subcommittees, and task
                forces (and any other entity consisting of members of the Board and
                reporting to the Board) shall be subject to [the Sunshine Act].” 6
                Consequently, in 2003, the Board opened to the public, for the first time,
                its committee and other subdivision meetings. Such meetings continued
                to be open to the public through the time period covered by this audit.

                Audit Requirement

                In keeping with its interest for greater openness in Board meetings, the
                Congress placed another requirement in the 2002 Authorization Act
                directing that the NSF Office of Inspector General (OIG) conduct audits of
                the Board’s compliance with the Sunshine Act. 7 These audits are to
                “examine the proposed and actual content of closed meetings and
                determine whether the closure of the meetings was consistent with [the
                Act].” 8 In a report submitted to the Congress by February 15th of each
                audit period, the OIG is to make “recommendations for corrective actions
                that need to be taken to achieve fuller compliance with [the Sunshine Act]
                and recommendations on how to ensure public access to the Board’s
                deliberations.” 9

6
  Pub. L. No. 107-368 (2002).
7
  While these audits were initially required to be conducted annually, the National Science Foundation
Authorization Act of 2007 changed the audit requirement to at least tri-annually. See Pub. L. No. 110-69
(2007).
8
  Pub. L. No. 107-368 (2002).
9
  Id.


                                                                                                       3
This is the fifth audit of the Board’s Sunshine Act activities. Prior audits
found intent on the part of the Board to provide for greater access to and
increased openness in its meetings. Regarding the Board’s decisions to
close meetings, we found in past audits that the Board generally closed its
meetings consistent with the Sunshine Act’s exemptions. However, we
noted instances where the Board included agenda items in its closed
meetings that should have been more properly included in open sessions.
As a result of our audits, we recommended that the Board develop and
implement formal policies, processes, and procedures for complying with
the Sunshine Act’s closure requirements and that it provide training to
pertinent staff. The Board agreed with and implemented these
recommendations. We also found that, from 2003 through 2005, the
Board faced challenges in meeting the Sunshine Act’s numerous
procedural requirements but greatly improved its compliance in 2006 due
to the Board Office’s new process for tracking due dates. However, we
also found that the Board did not comply with the Sunshine Act’s
procedural requirements to vote on and publicly announce changes to its
already publicly announced agendas. As a result of our 2006 audit, the
Board Office developed and implemented formal policies and procedures
to ensure that the Board conducts the required vote for agenda changes
and that such changes are publicly announced.




                                                                           4
Results of Audit
         In addition to implementing policies and procedures that address all
         previous audit recommendations, the Board was in full compliance with
         the Sunshine Act, from January 2007 to August 6, 2009, when it made
         decisions to close upcoming Board meetings. In our review of available
         closed-meeting transcripts, we did not find any instance where the Board
         had specifically decided to close a meeting that instead should have been
         held open to the public. In addition, for most open meetings, the Board
         continues to show compliance with the Sunshine Act’s procedural
         requirements, including proper public announcement of meetings within
         the statutory time frames.

         However, our audit raises some concerns. Most notably, the Board could
         not produce complete transcripts, as required under the Sunshine Act, for
         9 of the 28 closed meetings we reviewed. When transcripts are
         incomplete or unavailable, the public cannot obtain information from these
         closed meetings and public trust in the decision-making process may be
         diminished. A combination of insufficient knowledge of Sunshine Act
         requirements and technical problems contributed to the Board not having
         complete transcripts.

         Further, we found several instances where the Board made impromptu
         adjustments to meetings without following all of the Sunshine Act
         requirements for such changes. Adherence to these procedural
         requirements is necessary to ensure the fullest amount of openness in
         government; not following them can diminish Board transparency and
         accountability. These instances of non-compliance with requirements
         appear to have occurred because the Board’s process for setting meeting
         agendas may not provide all Board members with the opportunity for input
         into the planned topics for discussion and because Board members and
         Executive Secretaries may not have the knowledge needed to properly
         handle impromptu meeting changes.

         Finally, we noted a few minor instances of non-compliance for which we
         are notifying the Board Office under separate cover.

Board Demonstrates Compliance with Most Sunshine Act
Requirements
         From January 2007 to August 6, 2009, the Board was in full compliance
         with most of the Sunshine Act’s many requirements and procedures.
         First, when making decisions to close upcoming Board meetings, the
         Board continued to improve over prior years and was in full compliance
         with the Sunshine Act. Under the Sunshine Act, to close a meeting or a


                                                                                  5
        portion of a meeting, the Board must decide, in advance, whether a
        proposed topic is likely to raise discussions covered by one of the ten
        exemptions contained in the Act. Our review of available closed-meeting
        transcripts did not identify any instance where the Board had specifically
        decided to close a meeting that instead should have been held open to the
        public.

        In addition, for most open meetings, the Board continues to show
        compliance with the Sunshine Act’s procedural requirements, including
        proper public announcement of meetings within the statutory time frames.
        For the 40 open meetings included in our sample, 33 (83 percent) fully
        complied with all the Sunshine Act’s requirements, which require that
        various pieces of meeting information be made public so that interested
        parties can make informed and timely decisions on whether to attend.

Board Needs to Maintain Complete Transcripts of Closed
Meetings
        The most notable of the non-compliance issues was the lack of complete
        transcripts or recordings that are required for the Board’s closed meetings.
        For 9 of the 28 closed meetings in our sample, or 32 percent, the Board
        could not produce either complete transcripts or recordings.

        For five of these closed meetings, the Board had no transcript or
        recording. These included three closed meetings of the Nominations
        Committee for Board Elections (NOM), one closed meeting of the
        Vannevar Bush Award (VBA) Committee, and one closed meeting of the
        Audit and Oversight (A&O) Committee. During our audit, Board Office
        staff stated that no transcripts or recordings were taken for any of the
        closed VBA or NOM meetings held from 2007 through August 2009,
        although there were limited meeting minutes. When asked for an
        explanation, one Board Office staff member stated he understood that
        transcripts or recordings were not required for these meetings. He also
        stated that transcripts had never been taken for closed meetings of the
        NOM Committee. In the past, however, prior audits found Board
        transcripts or recordings for both closed VBA and closed NOM meetings.
        With respect to the closed A&O meeting, Board Office staff properly stated
        and we concur, that the failure to maintain a transcript of that session
        resulted from discussions between the Board Office and the OIG
        regarding the conduct of such meetings involving the OIG. Those
        discussions contained incorrect information about the need for a transcript
        and the misunderstanding of both parties on this point was corrected
        subsequently.

        In addition, for four closed meetings in our sample the Board could only
        provide incomplete recordings or transcripts. These were electronic audio


                                                                                   6
        or video recordings that encountered a technical malfunction. For
        example, for one of the audio recordings, one side of the cassette tape ran
        out before the meeting discussions ended. On the second side of the
        cassette tape, the discussion begins mid-conversation with no indication
        of how much of the meeting was lost. For another meeting, the full
        transcript was made up of two separate video recordings but the video for
        the first half of the meeting was blank. The Board Office indicated that the
        tape was blank due to a technical problem.

        While the Sunshine Act does allow for the closure of meetings under
        certain circumstances, it also requires agencies to maintain verbatim
        transcripts or recordings, in most instances, of closed meetings so that the
        public may still have access to this information. If those transcripts or
        recordings are unavailable, the public is, in essence, denied access to
        information from these closed meetings and public trust in the decision-
        making process may be diminished.

        According to Board Office staff, some of the problems resulting in missing
        and/or incomplete transcripts or recordings were due to malfunctioning
        recording equipment. In the past, the Board Office has primarily relied on
        court reporters to ensure closed Sunshine Act meetings were fully
        transcribed. However, according to Board Office staff, they stopped using
        court reporters when the Board started meeting in parallel sessions and
        the costs became too high.

        Conversations with the Board Office indicate that they are in the process
        of procuring new recording equipment. This new equipment will include
        digital recorders and microphones that will identify the speaker. The
        recorders run for a sufficient length of time to allow meetings to be
        captured in their entirety. However, the Board Office will still need to
        ensure that the new equipment is working as intended, because the lack
        of a transcript or recording, if requested by the public or other
        stakeholders, could be problematic for the Board.

        In addition, missing transcripts were also caused by a lack of full
        knowledge regarding Sunshine Act requirements by many of the parties
        involved. As noted previously, one of the instances we identified in which
        there was no transcript resulted from a misunderstanding by Board Office
        and OIG staff as to the need for a transcript in certain A&O Committee
        closed sessions.

Process Improvements Needed for Impromptu Agenda
Changes
        The Sunshine Act recognizes the realities of how meetings can evolve and
        includes within it a process to follow to provide for meeting flexibility while


                                                                                     7
also ensuring the most amount of transparency possible. For agenda
changes to open meetings, the Board needs to decide whether agency
business requires the proposed topic to be discussed during the meeting,
without the benefit of advance notice to the public, and this decision must
be recorded through a vote. Further, the change and the vote on the
change must still be publicly announced as soon as possible. For agenda
changes to closed meetings, the same process applies in regards to the
public notice requirements. Further, there is also the added step that
requires the Board to decide whether the proposed discussion “is likely” to
fall under one of the Sunshine Act’s ten exemptions. Cancellations of
meetings are also agenda changes and require the same public notice as
other changes.

For the total 68 open and closed meetings we reviewed, we found 10
meetings that did not go as planned. Sometimes, the Board added topics
to its already announced agendas. In other instances, meetings were
cancelled entirely. However, the Board properly followed the Sunshine
Act’s process for handling changes for only one of these meetings. In the
other nine meetings, the Board had one or more instances of non-
compliance relating to the changed circumstances:

•   2 open meetings in 2007 and 2009 had unannounced agenda changes
    without the necessary vote to add the agenda items;

•   2 open meetings in 2007 were cancelled without public notice; and

•   5 closed meetings in 2007 and 2008 had unannounced agenda items
    with no vote to add the agenda items, no vote to close the discussion
    for these items, and no determination whether the items for discussion
    met a Sunshine Act exemption.

Following the Sunshine Act procedures for unplanned changes to
meetings helps ensure the fullest amount of transparency in government
deliberations. While the public may not have enough notice to make a
decision regarding attending a changed meeting, it would be assured that
the Board has decided that this was an important enough item to merit
discussion during the meeting in question and not later. Further, the
public would see the results of the Board’s votes when they are publicly
announced. Finally, for closed meetings, the public could see that the
Board has made the decision not only to hold the meeting now rather than
later, but also that the Board determined its discussion is likely to fall
within one of the Act’s ten exemptions and it is appropriate to discuss this
unplanned subject in a closed session. Further, for closed meetings, the
public, once notified of the change in agenda, could request a copy of the
closed transcript. Not following these procedures, in turn, could diminish
Board transparency and accountability.


                                                                           8
        While it may be impossible to eliminate all unplanned meeting changes,
        the timing of the Board’s development of meeting agendas may contribute
        to an increase in such changes. For example, according to Board Office
        staff, Board members are not always consulted on what agenda topics
        should be discussed at the upcoming Board meetings because not all of
        the Committee Chairs poll their members for proposed agenda topics. Our
        comparison of publicly announced agendas to closed transcripts and
        meeting minutes demonstrates that impromptu topics come up during the
        Board meetings. Further, during meetings, Board members and Executive
        Secretaries may not have the knowledge of and experience with the
        technical requirements of the Sunshine Act in order to assure full
        compliance in managing these changes. Providing a readily-available
        checklist of steps for Executive Secretaries to follow in the event of an
        impromptu meeting change could help alleviate this situation.

Conclusions and Recommendations
        In order to demonstrate the National Science Board’s continued
        commitment to both the requirements and the intent of the Sunshine Act,
        we recommend that the Executive Officer of the National Science Board:

        •   Ensure that all closed meetings are completely recorded and/or
            transcribed;

        •   Evaluate ways to improve the current process for setting agenda items
            to enable Board members to contribute to the development of the
            agenda in advance and help reduce the number of impromptu meeting
            changes. This could include sending out proposed agenda items and
            allowing the Board members to voice their opinion on these agenda
            items, as well as propose adding items they may wish to discuss;

        •   Consider updating the Board Office’s Sunshine Act policies and
            procedures to include checklists to help staff comply with the
            numerous Sunshine Act requirements. Specific checklists could be
            prepared for given situations, such as how to handle impromptu
            agenda changes both before and during a Board meeting; and

        •   Ensure that all Board members, Board Office staff, and Executive
            Secretaries receive continuing periodic training on Sunshine Act
            requirements. This training should be tailored to meet the various
            needs of the different groups, and could also include any other NSF
            and OIG staff that may periodically be involved in Board meetings. For
            example, the training to the Board staff should specifically include
            information on how to properly implement and provide notice for
            agenda changes.


                                                                                  9
Other Matter
                  On September 24, 2009, the Board released a Statement on Open Board
                  Meetings, which reflects new parameters for opening its committee and
                  subcommittee meetings to the public. While the Statement indicates that
                  the Board may continue to open these discussions to the public, it does
                  not state the Board will continue to follow Sunshine Act procedures for
                  announcing and conducting these discussions. Consequently, this
                  Statement may be in conflict with the National Science Foundation
                  Authorization Act of 2002, which states that all of the Board’s committees
                  and subcommittees would be subject to the Sunshine Act. 10 Board Office
                  officials have indicated they plan to discuss this proposed change in
                  practice with interested stakeholders before implementation. We agree
                  with this course of action and suggest the Board Office hold these
                  discussions as soon as possible.

Agency Response
                  The Board reviewed a draft of this report and generally agrees with our
                  findings and recommendations. In addition, the Board stated it is working
                  to increase its transparency and openness.

                  We have included the Board’s response to this report in its entirety as an
                  appendix.




OIG Contact and Staff Acknowledgements
                  Karen Scott - Senior Audit Manager
                  (703) 292-7966 or kscott@nsf.gov

                  In addition to Ms. Scott, Kristen Cutforth, Elizabeth Goebels, and Monica
                  Radcliffe made key contributions to this report.




10
     See Pub. L. No. 107-368 (2002).


                                                                                           10
Appendix A: Agency Response




                              11
Appendix B: Objectives, Scope, and Methodology
                In keeping with the statutory audit requirement, the objectives of our audit
                were to:

                •   Determine whether the Board’s closures of meetings were consistent
                    with the exemptions contained in the Government in the Sunshine Act;
                    and

                •   Determine whether the Board and its subdivisions were in compliance
                    with the procedural requirements of the Government in the Sunshine
                    Act.

                Our audit covered Board meetings held from January 2007 through
                August 6, 2009. 11 During this timeframe, the Board conducted 217
                separate meetings of which 69, or 32 percent, were closed. For the
                purposes of this audit, we counted each of the various committee,
                subcommittee, and task force meetings separately, although they typically
                occur during the same two-day time period. 12 Also, we considered a
                committee meeting with both an open and closed portion on the same day
                as two separate meetings: one open and one closed. However, we
                considered a committee meeting that met for more than one non-
                consecutive time frame during a single day, and was either entirely open
                or entirely closed, as one meeting. For example, an open Task Force on
                Polar Issues meeting from 1:00pm to 3:00pm, with a closed portion from
                1:30pm to 2:00pm would count as two meetings. Likewise, an open
                Education and Human Resources Committee meeting from 9:00am to
                10:00am and again from 1:00pm to 2:00pm on the same day, with no
                closed session, would count as one meeting.

                To determine whether the Board complied with the procedural
                requirements of the Sunshine Act, we interviewed agency personnel and
                gathered and reviewed documentation for a random sample of 40 (27
                percent) of 148 open meetings and 28 (41 percent) of 69 closed meetings.
                For both the open and closed meetings in our sample, we determined
                whether the Board met the Sunshine Act’s procedures for public notice.
                For each of the closed meetings in our sample, we reviewed
                documentation to determine whether the Board met the applicable
                Sunshine Act requirements, including voting to close and maintaining a
                closed transcript for each meeting.


11
   We chose to limit meetings to August 6, 2009 to ensure the OIG had adequate time to conduct its audit.
The remainder of the 2009 meetings will be included in a subsequent audit.
12
   In August 2008 the NSB started holding subcommittee meetings and task force meetings within
committee meetings. We counted these subcommittee and task force meetings as separate meetings for
the purposes of our audit.


                                                                                                      12
To determine whether the Board closed its meetings in accordance with
the Sunshine Act’s exemptions, we reviewed the random sample of 28
closed-meeting transcripts and compared them with meeting agendas,
General Counsel certifications, and the Board’s explanations for closing
the meetings.

We conducted our work during the period of August 2009 through January
2010 in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe
that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




                                                                           13
